No. 19-46
In the

Supreme Court of the United States
UNITED STATES PATENT &
TRADEMARK OFFICE et al.,
Petitioners,
v.
BOOKING.COM B.V.,
Respondent.
On Writ of Certiorari to the United States
Court of A ppeals for the Fourth Circuit

BRIEF FOR AMICUS CURIAE
INTELLECTUAL PROPERTY
OWNERS ASSOCIATION IN SUPPORT
OF RESPONDENT
Daniel J. Staudt
Eric R. Moran
President
Counsel of Record
Kevin H. Rhodes
Nicole E. Grimm
Chair, Amicus Brief
McDonnell Boehnen
Committee
Hulbert & Berghoff LLP
Intellectual Property
300 South Wacker Drive
Owners A ssociation
Chicago, IL 60606
1501 M St. N.W., Suite 1150
(312) 913-0001
Washington, D.C. 20005
moran@mbhb.com
(202) 507-4500
Counsel for Amicus Curiae, Intellectual
Property Owners Association
294524

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
INTEREST OF THE AMICUS CURIAE . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT  . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I.

A G eneric T erm added
to A G eneric to p - le v el
domain (TLD) Should Not BE
Considered generic per se  . . . . . . . . . 3
A. A Generic Term Added to a Generic
TLD Should Be Analyzed for Secondary
Meaning or Inherent Distinctiveness . . . . . 4
B. Courts of Appeals Have Not Applied a
Per Se Rule to Marks Having a Generic
Term Added to a Generic TLD  . . . . . . . . . . 5
C. Goodyear’s Did Not Create a Per Se
Rule Against Trademarking a Generic
Term Added to a Generic TLD  . . . . . . . . . . 7
D. Doma i n Na me s Ca n Repre sent
Source Identify ing Locations on
the Internet . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

ii
Table of Contents
Page
E. A TLD Indicator Added to a Generic
Term Does Not Make the Composite
Term Per Se Functional  . . . . . . . . . . . . . . . 10
II. G ranting T rademark
Protection to A Generic Term
added to A Generic TLD will
not necessarily Result in
Overly Broad marks . . . . . . . . . . . . . . . . 10
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
APPENDIX  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a

iii
TABLE OF CITED AUTHORITIES
Page
Cases
Abercrombie & Fitch Co. v.
Hunting World, Inc.,
537 F.2d 4 (2d Cir. 1976) . . . . . . . . . . . . . . . . . . . . . . . . 3
Advertise.com, Inc. v. AOL Advert., Inc.,
616 F.3d 974 (9th Cir. 2010)  . . . . . . . . . . . . . . . . . . . . . 6
Booking.com B.V. v.
United States Patent & Trademark Office,
915 F.3d 171 (4th Cir. 2019) . . . . . . . . . . . . . . . . passim
Canal Co. v. Clark,
80 U.S. 311 (1871)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
George & Co. LLC v. Imagination Entm’t Ltd.,
575 F.3d 383 (4th Cir. 2009) . . . . . . . . . . . . . . . . . . . . . 3
Goodyear’s Rubber Mfg. Co. v.
Goodyear Rubber Co.,
128 U.S. 598 (1888) . . . . . . . . . . . . . . . . . . . . .  7, 8, 9, 10
Hunt Masters, Inc. v.
Landry’s Seafood Rest., Inc.,
240 F.3d 251 (4th Cir. 2001) . . . . . . . . . . . . . . . . . . . . . 9
In re Hotels.com, L.P.,
573 F.3d 1300 (Fed. Cir. 2009) . . . . . . . . . . . . . . . . . 6, 9

iv
Cited Authorities
Page
In re Oppedahl & Larson LLP,
373 F.3d 1171 (Fed. Cir. 2004) . . . . . . . . . . . . . . . . . 5, 6
In re Steelbuilding.com,
415 F.3d 1293 (Fed. Cir. 2005) . . . . . . . . . . . . . . . . . . . 4
Park ’N Fly, Inc. v. Dollar Park & Fly, Inc.,
469 U.S. 189 (1985) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Qualitex Co. v. Jacobson Prod. Co.,
514 U.S. 159 (1995)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
TrafFix Devices, Inc. v. Mktg. Displays, Inc.,
532 U.S. 23 (2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Two Pesos, Inc. v. Taco Cabana, Inc.,
505 U.S. 763 (1992)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Rule
Supreme Court Rule 37.6  . . . . . . . . . . . . . . . . . . . . . . . . . 1
Miscellaneous
Trademark Manual of Examining Procedure
§ 1209.03(m) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

1
INTEREST OF THE AMICUS CURIAE
Amicus cur iae Intellectual Property Ow ners
Association (IPO) is a trade association representing
companies and individuals in all industries and fields
of technology who own or are interested in intellectual
property rights.1 IPO’s membership includes more than
175 companies and more than 12,000 individuals who are
involved in the association either through their companies
or as inventors, authors, executives, law firms, or attorney
members. The corporate members of IPO own tens of
thousands of trademarks and rely on the federal trademark
system to protect these valuable assets. Founded in 1972,
IPO represents the interests of all owners of intellectual
property. IPO regularly represents the interests of its
members before government entities and has filed amicus
curiae briefs in this Court and other courts on significant
issues of intellectual property law. The IPO Board of
Directors approved the filing of this brief. 2
This case presents a question of substantial practical
importance to IPO’s members: namely, whether the
addition of a generic top-level domain (“.com”) to
an otherwise generic term can create a protectable
trademark. IPO respectfully requests that this Court find
1. Pursuant to Supreme Court Rule 37.6, amicus affirms
that no counsel for a party authored this brief in whole or in part,
nor has any counsel, party, or third person other than amicus or
its counsel made any monetary contribution intended to fund the
preparation or submission of this brief. The parties have consented
to the filing of the brief.
2. IPO procedures require approval of positions in briefs by
a two-thirds majority of directors present and voting.

2
that generic terms added to generic top-level domains
(TLDs) are not per se generic, and thus are eligible for
trademark protection under certain circumstances.
Instead, these terms should be analyzed to determine
whether they have achieved secondary meaning due to
use in commerce and can, therefore, be protected as
trademarks. 3
SUMMARY OF THE ARGUMENT
This case presents a narrow issue before this Court.
IPO believes that a generic term added to a generic TLD
should be eligible for trademark protection under certain
circumstances, including upon a showing of secondary
meaning or inherent distinctiveness. This approach
is consistent with how courts of appeals and the U.S.
Patent and Trademark Office analyze such terms, and
is not inconsistent with prior precedent of this Court.
Furthermore, domain names can serve as unique sourceidentifiers to the relevant public. This unique ability
for domain names to identify a location on the internet,
however, does not make a domain name term per se
functional. Finally, permitting trademark protection for
certain “generic.com” terms will not necessarily result in
overly broad marks because (1) each generic component of
the term will be free for others to use and (2) enforcement
of the mark will still require a showing of likelihood of
confusion. For these reasons, IPO respectfully requests
that this Court find that a generic term added to a generic
top-level domain (TLD) is not per se generic, and thus,
3. IPO takes no position on the other aspects of the Fourth
Circuit’s decision in Booking.com B.V. v. United States Patent &
Trademark Office, 915 F.3d 171 (4th Cir. 2019).

3
can be eligible for trademark protection under certain
circumstances.
ARGUMENT
I.

A Generic Term added to A Generic
top-level domain (TLD) Should Not BE
Considered generic per se

A generic term refers to a genus of which a particular
good or service is a species. See, e.g., Two Pesos, Inc. v.
Taco Cabana, Inc., 505 U.S. 763, 768 (1992). A finding of
genericness has drastic consequences. A generic term
cannot be registered as a trademark. Park ’N Fly, Inc. v.
Dollar Park & Fly, Inc., 469 U.S. 189, 194 (1985). Further,
once a term is deemed generic, it can never be eligible for
trademark protection. Even if the term develops sourceidentifying meaning in the eyes of the relevant public, it
cannot be protected because it could create a monopoly
over a commonly used term. Booking.com B.V. v. United
States Patent & Trademark Office, 915 F.3d 171, 186 (4th
Cir. 2019); see also Abercrombie & Fitch Co. v. Hunting
World, Inc., 537 F.2d 4, 9 (2d Cir. 1976).
Descriptive terms, on the other hand, describe the
characteristics of a good or service. Such a term can be
protected and registered as a trademark upon a showing
of acquired secondary meaning (i.e., the mark has become
distinctive of the applicant’s good or product in commerce).
Park ‘N Fly, Inc., 469 U.S. at 194; George & Co. LLC v.
Imagination Entm’t Ltd., 575 F.3d 383, 394 (4th Cir. 2009).
A lthough a domain name may contain generic
component parts, IPO believes that this kind of name

4
should be eligible for trademark protection under certain
circumstances, including upon a showing of secondary
meaning or inherent distinctiveness. Courts of appeals
and this Court have never created a bright-line rule
against registering such marks, and doing so now would be
unprecedented. Furthermore, domain names are different
from the names of traditional brick-and-mortar companies
and can serve as unique source-identifiers to the relevant
public. Accordingly, IPO believes that a generic term
added to a generic TLD should not be deemed generic
per se.
A.

A Generic Term Added to a Generic TLD
Should Be Analyzed for Secondary Meaning
or Inherent Distinctiveness

As courts of appeals and the U.S. Patent and
Trademark Office have noted, a generic TLD added to a
generic term may render the composite term sufficiently
distinctive to be protected as a trademark. Booking.com
B.V., 915 F.3d at 186; see also In re Steelbuilding.com, 415
F.3d 1293, 1297 (Fed. Cir. 2005) (“Only in rare instances
will the addition of a TLD indicator to a descriptive term
operate to create a distinctive mark.”); Trademark Manual
of Examining Procedure § 1209.03(m) (same).
Although protection is limited to “rare circumstances,”
these terms should nevertheless be analyzed similarly to
other terms that may be descriptive or allegedly generic.
Upon a showing that the “primary significance” of a mark
to the relevant public is as a source and not the product, a
generic second-level domain name combined with a “.com”
can result in a protectable (non-generic) mark. Booking.
com B.V, 915 F.3d at 187.

5
As with other terms, information related to a domainname term should be reviewed as to whether it has
secondary meaning or can be protected as a trademark
due to use in commerce. For example, consumer surveys
are routinely used in disputes over a term’s genericness.
Such surveys can be “strong evidence” that the relevant
public associates a mark with a brand as opposed to
a generic meaning. See id. at 183 (noting that survey
evidence indicated that “74.8% of respondents identified
BOOKING.COM as a brand name, rather than as a
general reference to hotel reservation websites.”).
Furthermore, a showing of inherent distinctiveness
could also render a TLD added to a generic term
protectable as a trademark. See, e.g., In re Oppedahl
& Larson LLP, 373 F.3d 1171, 1175 (Fed. Cir. 2004)
(providing a hypothetical example of where a TLD could
enhance the distinctiveness of a mark, such as TENNIS.
NET, for a company that sells tennis nets but does not
operate on the internet).
B. Courts of Appeals Have Not Applied a Per Se
Rule to Marks Having a Generic Term Added
to a Generic TLD
Besides the Fourth Circuit, the Federal Circuit and
Ninth Circuit are the only other courts of appeals to have
addressed whether adding a “.com” to a generic secondlevel domain can be protectable as a trademark. None of
these circuits, however, has adopted a categorical rule that
a mark containing a generic term with a generic TLD is
generic per se.

6
Indeed, the Federal Circuit and the Ninth Circuit have
explicitly stated that adding a “.com” to a generic secondlevel domain is not per se unprotectable as a trademark.
See Advertise.com, Inc. v. AOL Advert., Inc., 616 F.3d
974, 982 (9th Cir. 2010) (“We have already stated that we
create no per se rule against the use of domain names,
even ones formed by combining generic terms with TLDs,
as trademarks.”); In re Oppedahl & Larson LLP, 373 F.3d
1171, 1177 (Fed. Cir. 2004) (“The addition of a TLD such
as ‘.com’ or ‘.org’ to an otherwise unregistrable mark will
typically not add any source-identifying significance….
This, however, is not a bright-line, per se rule.”).
The Ninth Circuit and Federal Circuit both looked
at evidence of distinctiveness, even though each found
“generic.com” names generic. Booking.com B.V., 915 F.3d
at 186. For example, in finding ADVERTISING.COM
generic, the Ninth Circuit left open the possibility that
“consumer surveys or other evidence might ultimately
demonstrate that [the] mark is valid and protectable.”
Advertise.com, Inc., 616 F.3d at 982. Similarly, in finding
HOTELS.COM generic, the Federal Circuit considered
a consumer survey regarding the public’s understanding
of HOTELS.COM. In re Hotels.com, L.P., 573 F.3d 1300,
1305 (Fed. Cir. 2009).
As such, the Fourth Circuit’s holding in Booking.
com B.V. v. United States Patent & Trademark Office is
not necessarily inconsistent with decisions in the other
circuits that have declined to create a bright line rule
against registering generic terms combined with generic
TLDs. See 915 F.3d 171, 186 (4th Cir. 2019) (“We therefore
decline to adopt a per se rule and conclude that when
‘.com’ is combined with an SLD, even a generic SLD, the

7
resulting composite may be non-generic where evidence
demonstrates that the mark’s primary significance to
the public as a whole is the source, not the product.”).
Therefore, this case does not create a need for this Court
to resolve a conflict among the courts of appeals.
C.

Goodyear’s Did Not Create a Per Se Rule
Against Trademarking a Generic Term Added
to a Generic TLD

In an 1888 decision, this Court reviewed whether
a generic term (i.e., “an article of commerce” such as
a particular type of rubber) combined with the term
“Company” could form a protectable trademark.
Goodyear’s Rubber Mfg. Co. v. Goodyear Rubber Co., 128
U.S. 598, 603 (1888). In holding that it could not, this Court
confirmed that no one party should have the exclusive
right to identify itself according to the product it sold,
and that naming a company “in the name of an article
of commerce, without other specification,” cannot create
such exclusive rights:
The addition of the word “Company” only
indicates that parties have formed an association
or partnership to deal in such goods, either to
produce or to sell them. Thus parties united
to produce or sell wine, or to raise cotton or
grain, might style themselves “Wine Company,”
“Cotton Company,” or “Grain Company,” but
by such description they would in no respect
impair the equal right of others engaged in
similar business to use similar designations,
for the obvious reason that all persons have a
right to deal in such articles, and to publish the

8
fact to the world. Names of such articles cannot
be adopted as trade-marks, and be thereby
appropriated to the exclusive right of any one;
nor will the incorporation of a company in the
name of an article of commerce, without other
specification, create any exclusive right to the
use of the name.
Id. at 602-03.
In reaching its decision, the Goodyear’s Court looked
to Canal Co. v. Clark, in which this Court held that no one
party can claim exclusive use of “geographical names,
designating districts of country.” Goodyear’s Rubber Mfg.
Co., 128 U.S. at 603 (citing Canal Co. v. Clark, 80 U.S. 311,
324 (1871)). In doing so, this Court reasoned that such
geographical designations “pointed only to the place of
production, and not to the producer” and did not serve to
identify the source of the goods. Id. A “trade-mark must,
either by itself or by association, point distinctively to the
origin or ownership of the article to which it is applied.” Id.
Use of a “.com,” however, is neither equivalent nor
analogous to use of the designation “Company.” The
combination of a TLD with a generic term can form a
unique Internet address from which goods or services
supplied or rendered from a single source can emanate.
In other words, such a domain name provides “other
specification” as required by Goodyear’s; it does not
point “only to the place of production,” but also “to the
producer,” as set forth in Canal.
Circuit courts have, therefore, properly interpreted
Goodyear’s as not creating a per se rule for top-level

9
domain indicators. While Goodyear’s is still considered
a precedential trademark decision, it was decided long
before the Lanham Act created a path for trademarking
descriptive terms and also long before internet companies
(and domain names) came into existence. It decided a much
different issue from the one facing the Court today.
Therefore, declining to adopt a rule that “generic.
com” terms are per se generic will not be inconsistent
with Supreme Court precedent.
D.

Domain Names Can Represent Source
Identifying Locations on the Internet

IPO believes that the addition of a “.com” or other
generic TLD to denote a specific, source identifying
location on the internet can result in a protectable mark.
Unlike general terms for traditional brick-and-mortar
companies such as “crab house,” see Hunt Masters, Inc.
v. Landry’s Seafood Rest., Inc., 240 F.3d 251, 254-55 (4th
Cir. 2001), looking to the component parts of a domain
name may not unambiguously represent the primary
significance of the term as a whole. See In re Hotels.
com, 573 F.3d at 1305 (acknowledging that “consumers
may automatically equate a domain name with a brand
name”) (citation omitted). Thus, even where the domainname-as-mark technically describes the service provided,
it does not necessarily follow that the public commonly
understands the mark to refer to the service broadly
speaking.

10
E. A TLD Indicator Added to a Generic Term
Does Not Make the Composite Term Per Se
Functional
Although functional features of a product cannot
form the basis for trademark protection of a mark, marks
function to identify a source. As this Court has stated
in TrafFix and Qualitex, “‘in general terms a product
feature is functional,’ and cannot serve as a trademark,
‘if it is essential to the use or purpose of the article or
if it affects the cost or quality of the article.’” TrafFix
Devices, Inc. v. Mktg. Displays, Inc., 532 U.S. 23, 24
(2001) (quoting Qualitex Co. v. Jacobson Prod. Co., 514
U.S. 159, 165 (1995)).
Even if such a doctrine can be applicable to word
marks, a TLD indicator added to a generic term does
not make the composite term per se functional under the
doctrine. A domain name, such as Wine.com (to use the
“Wine” example from the Goodyear’s case), is not essential
to the use or purpose of wine or the service of selling wine.
It should also not affect the cost or quality of wine or the
service of selling wine.
II. Granting Trademark Protection to A
Generic Term added to A Generic TLD
will not necessarily Result in Overly
Broad marks
Finally, IPO believes that granting trademark
protection to a mark containing a generic term combined
with a generic TLD upon a showing of primary significance
to the relevant public will not necessarily lead to overly
broad domain name marks. Because each generic term

11
and generic TLD, taken individually, would remain
generic and free for all competitors and others to use, the
resulting scope of protection will necessarily be narrow.
Furthermore, to enforce such a mark, an owner would
still need to show a likelihood of confusion. Booking.com
B.V, 915 F.3d at 187.
As discussed above, online companies are different
from brick-and-mortar companies. “Given that domain
names are unique by nature and that the public may
understand a domain name as indicating a single site,
it may be more difficult for domain name plaintiffs to
demonstrate a likelihood of confusion.” Id.
Furthermore, the USPTO has already registered
marks having arguably generic terms added to a generic
top-level domain name. See, e.g., STAPLES.COM (Reg.
No. 2,397,238), WEATHER.COM (Reg. No. 2,699,088),
ANCESTRY.COM (Reg. No. 3,852,700). To find that these
marks are now per se generic would cause a number of
marks that the USPTO has vetted and deemed eligible
for registration to become invalid.
IPO is also concerned that creating a per se rule that a
generic term added to a generic TLD causes the composite
mark to be generic will be an overly restrictive application
of trademark law. Once a mark is deemed generic, it is
no longer eligible for trademark protection. Requiring
that each composite term containing an allegedly generic
term and a generic TLD be evaluated for its primary
significance will help ensure that marks that the relevant
public views as source identifiers remain protectable.

12
CONCLUSION
For the reasons stated above, IPO respectfully
requests that the Court find that a generic term added
to a generic top-level domain is not per se generic, and
thus, can be eligible for trademark protection under the
appropriate circumstances.
Respectfully submitted,
Daniel J. Staudt
Eric R. Moran
President
Counsel of Record
Kevin H. Rhodes
Nicole E. Grimm
Chair, Amicus Brief
McDonnell Boehnen
Committee
Hulbert & Berghoff LLP
Intellectual Property
300 South Wacker Drive
Owners A ssociation
Chicago, IL 60606
1501 M St. N.W., Suite 1150
(312) 913-0001
Washington, D.C. 20005
moran@mbhb.com
(202) 507-4500
Counsel for Amicus Curiae, Intellectual
Property Owners Association
February 19, 2020

APPENDIX

1a
Appendix of the Board
Appendix1 — Members
of Directors Intellectual Property
Owners Association
Eric Aaronson
Pfizer Inc.

Steve Caltrider
Eli Lilly and Co.

Brett Alten
Hewlett Packard
Enterprise

John J. Cheek
Tenneco Inc.

Estelle Bakun
Exxon Mobil Corp.
Scott Barker
Micron Technology, Inc.
Thomas R. Beall
Corning Incorporated
Thomas Bluth
Caterpillar Inc.
Brian Bolam
Procter & Gamble Co.

Cara Coburn
Roche Inc.
Karen Cochran
Shell Oil Company
Johanna Corbin
AbbVie
Buckmaster de Wolf
General Electric Co.
Robert DeBerardine
Johnson & Johnson
Anthony DiBartolomeo
SAP SE

Gregory Brown
Ford Global Technologies
LLC
Bradley Ditty
InterDigital Holding, Inc.

1. IPO procedures require approval of positions in briefs by
a two-thirds majority of directors present and voting.

2a
Appendix
Daniel Enebo
Cargill, Inc.

Bill Harmon
Uber

Yen Florczak
Heath Hoglund
3M Innovative Properties Dolby Laboratories
Co.
Thomas R. Kingsbury
Louis Foreman
Bridgestone Americas,
Enventys
Inc.
Scott M. Frank
AT&T

Laurie Kowalsky
Koninklijke Philips N.V.

Darryl P. Frickey
Dow Chemical Co.

William Krovatin
Merck & Co., Inc.

Isabella Fu
Microsoft Corp.

Michael C. Lee
Google Inc.

Gary C. Ganzi
Evoqua Water
Technologies, LLC

William Miller
General Mills, Inc.

Tanuja Garde
Raytheon Co.
Krish Gupta
Dell Technologies
Henry Hadad
Bristol-Myers Squibb Co.

Jeffrey Myers
Apple Inc.
Ross Oehler
Johnson Matthey Inc.
KaRan Reed
BP America, Inc.

3a
Appendix
Paik Saber
Medtronic, Inc.
Matthew Sarboraria
Oracle USA Inc.
Manny Schecter
IBM Corp.
Jessica Sinnott
DuPont
Thomas Smith
GlaxoSmithKline
Daniel Staudt
Siemens Corp.
John Stewart
Intellectual Ventures
Management Corp.
Brian Suffredini
United Technologies
Corp.
Gillian Thackray
Thermo Fisher Scientific
Inc.

Joerg Thomaier
Bayer Intellectual
Property GmbH
Mark Wadrzyk
Qualcomm Inc.
Stuart L. Watt
Amgen, Inc.
Ariana Woods
Capitol One

